Memorandum from the Office of the Inspector General



February 8, 2011

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2010-13024 – DISTRIBUTOR AUDIT OF
NEWPORT UTILITIES



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, or wish to discuss our findings, please contact me or Melissa M.
Neusel, Acting Director, Distributor Audits, at (865) 633-7357. We appreciate the courtesy
and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

JRT:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Michael B. Fussell, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Robert A. Morris, WT 7C-K
      Emily J. Reynolds, OCP 1L-NST
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3A-C
      John G. Trawick, WT 3D-K
      Robert B. Wells, WT 9B-K
      OIG File No. 2010-13024
 


        
 


                                 Audit Report
 
Office
      of the Inspector General                             

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                           

 

 

 

 

 
DISTRIBUTOR AUDIT OF
 

NEWPORT UTILITIES
 

 




 




 

 
 
 

 
Audit Team                                 Audit 2010-13024
Jennifer R. Torregiano                     February 8, 2011
Jessica L. Monroe
Office of the Inspector General                                         Audit Report




ACRONYMS AND ABBREVIATIONS
FCA                        Fuel Cost Adjustment
FERC                       Federal Energy Regulatory Commission
FY                         Fiscal Year
kW                         Kilowatt
kWh                        Kilowatt Hours
MW                         Megawatt
NISC                       National Information Solutions Cooperative
OIG                        Office of the Inspector General
TVA                        Tennessee Valley Authority




Audit 2010-13024
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO
   CUSTOMERS .................................................................................................. 2

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 3

   CONTRACT COMPLIANCE ISSUES ............................................................... 5

   DISTRIBUTOR INTERNAL CONTROL ISSUE ................................................ 6

   TVA OVERSIGHT OPPORTUNITY.................................................................. 7

RECOMMENDATIONS .................................................................................. 7


APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED JANUARY 10, 2011, FROM SHERRY M. FRISBEE TO
   ROBERT E. MARTIN.

C. MEMORANDUM DATED JANUARY 24, 2011, FROM JOHN G. TRAWICK TO
   ROBERT E. MARTIN




Audit 2010-13024
                          Audit 2010-13024 – Newport Utilities
                                   EXECUTIVE SUMMARY

Why the OIG Did This Audit

  As part of the annual audit plan, the OIG (Office of the Inspector General) performed an
  audit of Newport Utilities, a distributor for Tennessee Valley Authority (TVA) power
  based in Newport, Tennessee. Annual revenues from electric sales were approximately
  $50 million in fiscal year 2009. Newport also operates nonelectric businesses, which are
  water and sewer utilities. The objective of the audit was to determine compliance with
  key provisions of the power contract between TVA and Newport.

What the OIG Found

  Our audit of Newport found improvements were needed in the areas of:

      Customer Classification – We identified 56 customer accounts, of 392 customer
       accounts selected for further review, not classified correctly that could impact (1) the
       proper reporting of electric sales and/or (2) nondiscrimination in providing power to
       customers. We were unable to estimate the monetary effect of all the classification
       issues because, in some instances, information was not available; however, for
       those instances where information was available, the monetary effect on Newport
       and TVA would not be significant. According to Newport personnel, 52 of the
       56 customer accounts were reclassified during the audit.
      Contract Compliance – We identified two areas where Newport was not meeting
       power contract requirements with TVA. Specifically, we found Newport (1) had three
       customers without an effective and/or signed contract for all 24 months of the audit
       period and (2) did not follow the Federal Energy Regulatory Commission (FERC)
       chart of accounts to correctly classify certain accounts. According to Newport
       personnel, the accounts were corrected to comply with FERC during the audit. In
       addition, after the exit conference, Newport provided signed contracts covering the
       audit period for two of the three customers.
      Distributor Internal Controls – We identified one area where Newport could
       strengthen internal controls. Specifically, we found an improvement could be made
       by implementing a corrected program code to ensure customers with estimated
       meter readings receive a refund for previously granted fuel cost adjustment amounts
       when the account is adjusted for actual usage.

  In addition, we found Newport had enough cash on hand to provide a cash reserve
  equivalent to a cash ratio of about 8 percent, which is within TVA’s established
  guidelines for an adequate cash ratio of 5 to 8 percent.




                                                                                          Page i
                         Audit 2010-13024 – Newport Utilities
                                  EXECUTIVE SUMMARY

  Finally, we identified one opportunity to enhance TVA’s oversight of the distributors
  reported in previous distributor audits. TVA is in the process of addressing this finding
  by developing definitive guidance for distributors on what constitutes prudent
  expenditures.

What the OIG Recommends

  We recommend the Group President, Strategy and External Relations, work with
  Newport to (1) implement procedures to prevent classification issues from recurring,
  (2) comply with various contract provisions related to documentation of customer
  contracts, and (3) strengthen internal controls.

Management's Comments

  Newport and TVA management generally agreed with our recommendations and have
  taken or are taking actions to address these recommendations. See Appendix B for
  Newport’s complete response and Appendix C for TVA’s complete response.

Auditor's Response

  The OIG concurs with actions taken and planned by Newport and TVA to correct the
  identified issues.




                                                                                       Page ii
Office of the Inspector General                                                                 Audit Report


BACKGROUND
Newport Utilities1 is a distributor for Tennessee Valley Authority (TVA) power
based in Newport, Tennessee, with revenues from electric sales of approximately
$50 million in fiscal year (FY) 2009. TVA relies on distributors to self-report
customer usage and subsequently the amount owed to TVA (Schedule 1).
Customers are generally classified as residential, commercial, manufacturing,
and lighting. Within these classes are various rate classifications based on the
customer type and usage. Table 1 shows the customer mix for Newport as of
June 2009.

                          Newport’s Customer Mix as of June 2009
                                                                                            Kilowatt
                                                Number of
        Customer Classification                                         Revenue            Hours (kWh)
                                                Customers
                                                                                              Sold
    Residential                                          17,384           $24,572,248         250,332,836
    General Power – 50 kW and Under
                                                          3,859              5,148,173         44,892,896
    (Commercial)
    General Power – Over 50 kW
                                                            227            19,327,153         242,852,158
    (Commercial or Manufacturing)
    Street and Athletic                                       45               317,831          2,465,532

    Outdoor Lighting2                                       147                638,692          5,355,224

     Total                                               21,662          $50,004,097        545,898,646

                                                                                                    Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Newport utilizes a software package from a third-party
processor, National Information Solutions Cooperative (NISC). Prior to
March 2008, Newport used an in-house system for billing and invoice processing.
Newport currently uses NISC systems to establish and set up new customers,
input customer meter information, perform the monthly billing process, and
execute customer account maintenance. Additionally, the prior in-house system
included and the current NISC system includes management reporting
capabilities (e.g., exception reports). All other accounting and finance
responsibilities are handled by Newport, which has a Board of Directors providing
oversight and a manager and accountant managing the daily activities. Newport
also operates nonelectric businesses, which are water and sewer utilities.

1
     The wholesale power contract is between the “Town of Newport, Tennessee,” and TVA. We will use
     “Newport Utilities” rather than the “Town of Newport, Tennessee,” in this report.
2
     The “Number of Customers” represents those customers who only have Outdoor Lighting accounts with
     Newport at June 30, 2009. In addition, another 5,926 customers had Outdoor Lighting accounts as well
     as accounts for other services. However, the totals for “Revenue” and “Kilowatt Hours Sold” include both
     categories of Outdoor Lighting customers.
Audit 2010-13024                                                                                      Page 1
Office of the Inspector General                                                                      Audit Report


FINDINGS
Our audit of Newport found one issue involving customer classifications that could
impact (1) the proper reporting of electric sales and/or (2) nondiscrimination in
providing power to consumers of the same rate class. In addition, we found
Newport had enough cash on hand to provide a cash reserve equivalent to a cash
ratio of about 8 percent, which is within TVA’s established guidelines for an
adequate cash ratio of 5 to 8 percent.

We also found improvements were needed to comply with contract provisions
regarding (1) maintenance of written customer contracts and (2) adherence to
the Federal Energy Regulatory Commission (FERC) chart of accounts for
classifying certain accounts. In addition, we identified one area where Newport
could strengthen internal controls. Finally, we found an opportunity to enhance
TVA’s oversight of distributors. This opportunity was also reported in previous
Office of the Inspector General (OIG) distributor audit reports, and TVA has
agreed to take corrective action.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO CUSTOMERS
As discussed below, we identified one customer classification issue that could
impact (1) the proper reporting of electric sales and/or (2) the ability to ensure
nondiscrimination in providing power to members of the same rate class.3 We
were unable to estimate the monetary effect of the issue because, in some
instances, information was not available; however, for those instances where
information was available, the monetary effect on Newport and TVA would not be
significant. However, correcting classification issues is important to ensure all
customers are placed in the correct rate classification and charged the same rate
as other customers with similar circumstances.

Customer Classification Issue
We found 56 customer accounts, of 392 customer accounts selected for further
review, that were not classified properly. The 56 customer accounts were
classified as Residential Rate – Schedule RS,4 although they should have been




3
    Section 5 Resale Rates subsection (a) of the power contract between TVA and Newport, dated
    December 14, 1979, states that “power purchased hereunder shall be sold and distributed to the ultimate
    consumer without discrimination among consumers of the same class and that no discriminatory rate,
    rebate, or other special concession will be made or given to any consumer, directly or indirectly.”
4
    Under the Residential Rate – Schedule RS adopted by Newport, customers are classified based on the
    following requirements: “This rate shall apply only to electric service to a single-family dwelling (including
    its appurtenances if served through the same meter), where the major use of electricity is for domestic
    purposes such as lighting, household appliances, and the personal comfort and convenience of those
    residing herein.”
Audit 2010-13024                                                                                          Page 2
Office of the Inspector General                                                                      Audit Report


classified under the General Power Rate – Schedule GSA.5 The GSA schedule
is divided into three parts—Part 1, Part 2, and Part 3—based on electric usage
and demand.6 The monetary impact of the classification issues below would not
be significant to Newport or TVA. Specifically, we noted:

    Forty-two customer accounts were separately metered structures, such as a
     barn, workshop, shed, etc., that should be classified as commercial.
    Ten customer accounts were commercial businesses that should be classified
     as commercial.
    Four customer accounts were for commercial lighting, such as security
     lighting that should be classified as commercial.

According to Newport personnel, 52 of the 56 accounts were reclassified from
residential to commercial (GSA schedule) as of August 2010. The four
commercial lighting accounts were still being investigated by Newport personnel.
Newport plans to adjust customer bills for inaccurate charges resulting from the
misclassifications.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses, (2) debt service,
(3) tax equivalent payments, and (4) reasonable reserves for renewals,
replacements, and contingencies. As discussed on the following page, we noted
Newport had enough cash on hand at June 30, 2009, to cover estimated
FY 2010 capital expenditures and provide a cash reserve equivalent to a cash


5
    Under the General Power Rate – Schedule GSA adopted by Newport, customers are classified based on
    the following requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer’s
        monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
6
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
Audit 2010-13024                                                                                           Page 3
Office of the Inspector General                                                                       Audit Report


ratio of about 8 percent, which is within TVA’s established guidelines for an
adequate cash ratio of 5 to 8 percent.7

As of June 30, 2009, Newport reported about $8 million in its cash and cash
equivalent accounts. Newport personnel provided the planned FY 2010 capital
expenditures as shown in Table 2 below.

                      Newport’s FY 2010 Planned Capital Expenditures

                       Planned Capital Expenditures                                         Project Cost
    Transmission Plant                                                                               $3,160,000
    Distribution                                                                                     $3,149,754
    General Plant                                                                                      $215,500
      Total Planned Capital Expenditures                                                             $6,525,254
                                                                                                          Table 2

In May 2010, Newport personnel indicated $2.2 million of the “Transmission
Plant” project had been delayed, but all other projects were completed or
scheduled for completion by fiscal year-end (June 30, 2010). Therefore,
estimated capital expenditures for FY 2010 were approximately $4,325,254.

When compared to Newport’s estimated capital expenditures for FY 2010, the
balance in Newport’s cash accounts at June 30, 2009, was enough to pay for
these projects and leave a reserve of about $3.68 million, as shown in Table 3.
Table 3 also shows Newport’s cash ratio percentage was about 17.5 percent
before accounting for estimated FY 2010 capital expenditures and about
8 percent after accounting for them.

     Newport’s Cash Accounts Compared to Estimated Capital Expenditures
                                                             FY 2010      Reserve After FY 2010
                               Cash and Cash
                                                        Estimated Capital   Estimated Capital
                                Equivalents
                                                          Expenditures        Expenditures
    FY 2009                             $8,006,585                 $4,325,254                        $3,681,331
    Cash Ratio                                17.5%                                                        8.05%
                                                                                                          Table 3




7
      TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
      calculated as follows:                              Cash + Cash Equivalents                              s
                             Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2010-13024                                                                                            Page 4
Office of the Inspector General                                                                    Audit Report


According to TVA records, over the past five years, Newport was approved for
one rate increase in 2008 and one rate decrease in 2005. Table 4 shows the
rate increases/decreases received by Newport and the cash position and cash
ratio at June 30 prior to the effective date of the rate change.

       Newport’s Rate Increases/Decreases, Cash Position, and Cash Ratio
                                      Cash and Cash                     Rate Increase/Decrease9
    Cash on Hand Equivalent
                                       Equivalents8            Change in
      to an 8% Cash Ratio                                                Percent           Effective Date
                                      and Cash Ratio           Revenue
                                           $14,276,947
           $3,081,490                                            $17,664       .04%           07/1/2008
                                           CR = 24.2%
                                           $13,647,685
           $7,991,429                                           $(41,237)     (.01)%          10/1/2005
                                           CR=26.7%
                                                                                                       Table 4

Discussions with Newport management indicated their operating philosophy is
generally conservative. Newport management prefers maintaining cash reserves
and limiting the use of financing.

CONTRACT COMPLIANCE ISSUES
We identified two areas where Newport was not meeting the power contract
requirements with TVA. Specifically, we found Newport (1) had three customers
without an effective and/or signed contract for all 24 months of the audit period
and (2) did not follow the FERC chart of accounts to correctly classify two
accounts. Below is further discussion on these items.

Customer Contracts When Demand Exceeds Threshold
We found Newport did not have customer contracts for all customers with
demand above one megawatt (MW) for the entire audit period. Specifically, we
found the GSA schedule from TVA requires all customers who exceed 50 kW per
month to sign a formal contract. However, TVA management, in response to
previous reports, indicated the threshold of 50 kW for requiring customer
contracts is too low. TVA management will recommend to the TVA Board that a
new and higher threshold be established as part of the rate change process with
distributors.10 In further discussions with TVA personnel, the proposed threshold
for requiring a contract is 1 MW.




8
     The cash and cash equivalents and cash ratio were computed based on information from Newport’s
     annual report as of June 30 prior to the effective date of the rate increase/decrease.
9
     These are the rate increases/decreases enacted by the distributor. These increases/decreases do not
     include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
     passed through by the distributor to the customer.
10
     When the rate change is put into effect, all retail customers above the new threshold will be expected to
     have executed contracts. Target completion date will coincide with the rate change efforts that are
     currently under way with the distributors and is expected to be in place by April 2011.
Audit 2010-13024                                                                                        Page 5
Office of the Inspector General                                                                 Audit Report


We found three of ten customer accounts with metered demand in excess of
1 MW did not have an effective contract for all 24 months of our audit period, and
the preceding contract was not maintained as part of the contract documentation.
Newport provided a copy of each customer’s current contract; however, two of
the customers’ contracts were not signed.11 Maintenance of customer contract
documentation is important to ensure customers are correctly classified and
billed in accordance with the contract terms.

After the Newport exit conference, Newport personnel provided copies of signed
contracts covering the missing portion(s) of the audit period for two of the three
customers. Therefore, we were unable to obtain a signed contract effective for
all 24 months of our audit period for one customer.

FERC Compliance
We noted two instances where Newport’s accounting records did not follow the
FERC chart of accounts to correctly classify two accounts. Specifically, we found
(1) one accrued liability account was recorded in an incorrect account, and
(2) one payable account (with 23 subaccounts) was recorded in an incorrect
account. We determined the accounts were reported correctly on the distributor
annual report submitted to TVA. According to Newport personnel, the two
accounts (including the 23 associated subaccounts), as well as an additional
subaccount identified by Newport, were reclassified to comply with FERC during
the audit.

DISTRIBUTOR INTERNAL CONTROL ISSUE
We found Newport’s internal controls could be strengthened in one area.
Specifically, we found improvements could be made with respect to remediating
a NISC programming error that resulted in customers not receiving correct
refunds. According to Newport, occasionally monthly meter readings were
estimated for certain accounts (e.g., new account, missed meter readings). The
next month, when an actual meter reading was obtained and the account was
adjusted, the resulting usage could be negative. We noted 30 customer
accounts with negative usage (kWh) at some point during the audit period. We
determined the appropriate charges were applied to each of these accounts on
the estimated usage amounts, and when the account was adjusted, the
appropriate amounts were refunded on the accounts’ power bill, except for the
fuel cost adjustment (FCA). We found 29 of the 30 accounts did not receive a
refund for the FCA.

Newport personnel identified an error in NISC’s programming code causing
customers with negative usage (kWh) to receive a refund for all applicable
charges except the FCA. Newport personnel manually credited the one
customer account when it was discovered and indicated they would manually
credit other accounts as they were identified. While the amount would not be
11
     The contract for one of these customers was dated September 1, 2009, which is after our audit period,
     and it was not signed.
Audit 2010-13024                                                                                     Page 6
Office of the Inspector General                                           Audit Report


significant to TVA and Newport, it is important to correct this programming error
to ensure customers receive appropriate refunds.

After the exit conference, Newport personnel provided documentation indicating,
as of November 24, 2010, NISC had found the programming error and was
correcting the program code.

TVA OVERSIGHT OPPORTUNITY

We found one opportunity to enhance TVA’s oversight of this distributor that has
been reported in previous OIG distributor reports. Specifically, we noted TVA
has not provided definitive guidance for distributors on what constitutes prudent
expenditures.

In response to the previous reports, TVA agreed to take corrective action on this
issue. Full discussion of this issue and TVA’s planned actions can be found in
prior OIG distributor reports on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
Newport to improve compliance with the contract and/or strengthen internal
controls. Specifically, Newport should:

1.   Implement procedures to assist in identifying accounts that need to be
     reclassified as commercial when service starts or changes to a
     nonresidential type (i.e., business or separately metered structure).

     Newport's Response – Newport agreed with the recommendation and
     stated all 56 customer accounts identified during the audit were reclassified,
     and 36-month adjustments were made on all but 4 accounts. The last 4
     accounts will be adjusted before April 2011. Newport stated they requested
     search guidelines from the OIG to identify rate class misclassifications and,
     based on these guidelines, they will require NISC to implement reports to
     review rate classes on a yearly basis. See Appendix B for Newport's
     complete response.

     TVA Management's Comments – TVA agreed the power contract requires
     consistent classification of customers in accordance with the provisions of
     the applicable rate schedule. The target completion date is April 2011. See
     Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions and
     provided Newport with a listing of criteria used to identify residential
     customer misclassifications.


Audit 2010-13024                                                                Page 7
Office of the Inspector General                                           Audit Report


2.   Ensure all customers who require a contract have a signed/executed
     contract and maintain contract documentation for at least four years after
     expiration in accordance with FERC guidelines.

     Newport's Response – Newport agreed with the recommendation and will
     be executing a signed contract, before April 2011, with the customer that was
     missing documentation. The distributor has purchased scanning equipment
     and implemented procedures that will permanently attach the contract to the
     customer record. See Appendix B for Newport's complete response.

     TVA Management's Comments – TVA agreed the resale rate schedules of
     the power contract required the distributor to obtain retail contracts with all
     customers whose contract demand exceeds 1,000 kW. According to TVA
     management, the distributor is not required by the power contract to maintain
     contract documentation in accordance with the FERC periods of retention.
     However, TVA recommends the distributor follow either FERC recommended
     retention period of four years for contracts or a retention period set by their
     independent auditor. Implementation of this recommendation has occurred.
     See Appendix C for TVA's complete response.

     Auditor's Response – The OIG concurs with the planned actions.

3.   Implement corrected program code to ensure customers with negative usage
     (kWh) receive a refund for amounts applicable to the FCA and identify and
     credit customers who previously did not receive an FCA refund.

     Newport's Response – Newport agreed with the recommendation and
     worked with NISC to correct the program in December 2010. All customers
     previously billed in error will be corrected by April 2011. See Appendix B for
     Newport's complete response.

     TVA Management's Comments – TVA agreed the power contract requires
     that the distributor sell power to its customers in accordance with the rates
     and charges set forth in the applicable resale rate schedules. The target
     completion date is April 2011. See Appendix C for TVA's complete
     response.

     Auditor's Response – The OIG concurs with the planned actions.




Audit 2010-13024                                                               Page 8
                                                                        APPENDIX A
                                                                         Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit of Newport Utilities was initiated as a part of our annual workplan. The
objective was to determine compliance with key provisions of the power contract
between TVA and Newport including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to consumers to the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period. To validate the reliability
    of the billing data, we compared the data to the information reported to TVA
    on the Schedule 1. No significant differences were noted, therefore, the data
    was deemed reliable.
   Performed queries on data to identify classification, metering, and contract
    compliance issues. We reviewed results of the queries and, using
    nonstatistical sampling, selected accounts for further analysis and follow-up to
    determine whether misclassification, metering issues, or noncompliance with
    contract requirements occurred. Since nonstatistical sampling was used,
    projection of the results was not appropriate.
   Limited our work on internal control to those control deficiencies identified as
    contributing to noted instances of noncompliance with the power contract
    and/or the TVA Act.
   Determined through inquiry and review of documentation whether Newport
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listing for the audit period. We reviewed and
    analyzed disbursements to identify instances where electric system funds
    may have been used for purposes not allowed under the TVA power contract.
    We used nonstatistical sampling to select questionable disbursements for
    further analysis and follow-up. Since nonstatistical sampling was used,
    projection of the results was not appropriate.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
                                                                     APPENDIX A
                                                                      Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor considered in determining an item’s
significance is whether the item exceeds 3 percent of the average annual
purchased power from TVA for the audit period. For this audit, the amount was
$1,141,721. Also for the purposes of this audit, we considered any errors
identified as systemic or intentional as significant.

The scope of the audit was for the period July 2007 through June 2009.
Fieldwork was conducted May 2010 through October 2010 and included visiting
the distributor’s offices in Newport, Tennessee. This performance audit was
conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDIX B
 Page 1 of 2
APPENDIX B
 Page 2 of 2
APPENDIX C
 Page 2 of 2
